                       CLOSEOUT FOR 2493090049




materiai from an earlier proposal to another government agency that
the subject prepared in collaboration with                        a
colleague in the complainant's department with whom the complainant
had discussed the content of the proposal. The complainant alleged
that his colleague was not acknowledged for his contributions to
the subject s proposal.
     OIG contacted the colleague to get a more specific description
of his contribution to his collaboration with the subject. The
colleague had not seen the actual NSF proposal, but noted that the
alleged overlap between the two proposals appeared to be entirely
in areas that fell within the subject's primary area of expertise


 --
of the NSF proposal.
     Because the colleague declined to supply us with a copy of the
collaborative proposal, OIG wrote to the subject informing her of
the allegation and requesting a copy of the proposal. Along with
the requested proposal, the subject sent a response to the
allegation of misconduct. She explained that the two proposals
were substantially'different, that none of her collaborator's work
appeared in her NSF proposal, and that insofar as the two proposals
overlapped, this was because both drew on her continuing program of
research that predated her collaboration with the colleague. The
subject also sent a copy of her NSF proposal to the colleague, who
sent O I G a note stating that, having now read the proposal, he did
not believe that the subject had misappropriated his ideas.
     O I G examined the s u bj ect ' s proposal and determined that the
subject was essentially accurate in her characterization of the
relationship between the two proposals. O I G also concluded that
the subject had not seriously deviated from accepted practice in
the way she referenced the colleague's contributions.
     O I G informed the complainant that we were closing the case
without a finding of misconduct.       We discussed with him the
importance of maintaining the confidentiality of proposals sent to
                             page 1 of 2
him for peer review and explained that suspicions of misconduct
should be reported directly to NSF, rather than informally explored
in conversations that violated the reviewer's responsibility to
keep the contents of proposals confidential.
      This case is closed and no further action will be taken.




Robert Bell
Staff scientist, Oversight




Peggy    Fischer
Acting Deputy Assistant Tnspector General,
                                                r?<yh,[&&ZL   -'
Oversight




Assistant Inspector General for Oversight




L . N&C~ Birnbaum
  '


Assistant Counsel to the Inspector General

cc: Signatories
    Inspector General




                             page 2 of 2
